HHS/OIG, Audit - "Review of Potential Duplicate Payments Identified by a
Centers for Medicare & Medicaid Services Recovery Audit Contractor,"
(A-03-06-00004)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Potential Duplicate Payments Identified by a
Centers for Medicare & Medicaid Services Recovery Audit Contractor,"
(A-03-06-00004)
October 30, 2006
Complete Text of Report is available in PDF format (481 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether claims that the recovery audit contractor (RAC) identified as part of CMS’s demonstration project were duplicate payments. None of the 241 claims that the RAC initially identified were duplicate payments. Of the 241 claims, 12 claims included overpayments, totaling $44,746, for six beneficiary stays with 1-day admissions and subsequent same-day readmissions. We recommended that CMS consider the performance of the RAC when reporting to Congress on the demonstration project’s impact on Medicare savings and on CMS’s decision to expand the project. CMS concurred with our recommendation.